    Semiannual
      Report to
      Congress
October 1, 2009–March 31, 2010
                  OIG-CA-10-008


     Office of Inspector General
    Department of the Treasury
Highlights

• During this semiannual reporting period, 40 audit products were issued.

• We completed material loss reviews of six failed Treasury-regulated financial institutions that
   together resulted in a loss to the Deposit Insurance Fund of $1.2 billion. High concentrations in
   certain types of loans (including high risk land and construction loans), ineffective management,
   exacerbated by the significant drops in real estate value were primary reasons for all of the
   institutions’ failures.

• We issued two audit reports as part of our ongoing oversight of Treasury’s more than $20 billion of
   non-Internal Revenue Service spending authority under the American Recovery and Reinvestment
   Act of 2009. The two reports issued during this period were part of the Recovery Accountability and
   Transparency Board-coordinated government-wide reviews. In the first review, we found that data
   prepared by Treasury regarding the adequacy of Recovery Act staffing levels, qualifications, and
   training were not reliable. Management immediately agreed to correct the problems with the survey
   data as well as address any issues identified once reliable data was obtained. In the second review, we
   found weaknesses in Treasury’s processes for reviewing recipient data. Again, management was
   receptive to our recommendations for improvement.

• KPMG LLP, under our oversight, issued an unqualified opinion on the Department of the
   Treasury’s fiscal year 2009 financial statements. The auditors reported two material weaknesses
   related to financial management practices at the Departmental level and financial systems and
   reporting at the Internal Revenue Service.

• Our office issued its fourth report on Suspicious Activity Report (SAR) data quality. SARs filed by
   financial institutions with the Financial Crimes Enforcement Network are critical to law
   enforcement efforts to combat, among other things, money laundering and terrorist financing. Three
   prior audits revealed that a large percentage of SARs contained missing or inaccurate data. Our latest
   audit concluded that SAR data quality had not significantly improved by 2006. We found that
   59 percent of the approximately 1.1 million SARs filed in fiscal year 2006 contained omissions or
   incorrect, inconsistent, or inappropriate information in 1 or more of 17 critical fields. Management
   has since undertaken efforts to improve the quality and integrity of SAR data.

• Our Office of Investigations determined that the daughter of a deceased Metropolitan D.C. police
   officer unlawfully received $54,000 from a pension fund administered by the Department. The
   Department is in the process of reclaiming the funds.

• An OIG Special Agent received an award for his contributions to successful prosecutions in an
   identity theft case. Another Office of Investigations employee participated on a Treasury Team that
   was recognized for achieving significant energy savings.

                   Treasury Office of Inspector General Semiannual Report—March 2010                     i
Message From the Inspector General
Over the past 6 months, my office focused almost exclusively on performing material loss reviews of
failed banks and thrifts regulated by the Office of the Comptroller of the Currency (OCC) and the
Office of Thrift Supervision (OTS). These reviews are mandated by the Federal Deposit Insurance Act
whenever a failed Treasury-regulated financial institution causes a loss of $25 million or more to the
Federal Deposit Insurance Corporation’s Deposit Insurance Fund. During the current economic crisis
through March 31st of this year, my office has completed and issued 17 such reviews and has another 32
underway. The failures of these 49 Treasury-regulated financial institutions have cost the Deposit
Insurance Fund an estimated $34 billion.

The results of these reviews have provided a great deal of information as to why these institutions failed,
as well as to the quality of supervision exercised by OCC and OTS. Several broad themes have emerged
with regard to both. Clearly, the severity and swiftness of the recession and, in particular, the decline in
the real estate market were factors in the failure of most of these institutions. However, that does not
tell the whole story. We have found that time and again many of these failed institutions offered risky
loan products and engaged in poor underwriting practices as they embarked on strategies of rapid
growth--growth often funded by volatile funding sources. The risks presented by poor underwriting
were often magnified by high concentrations in one particular type of loan product, geographic location,
or both. In addition, the management and boards of these institutions were often ineffective in
monitoring their risks and failed to correct regulator-identified problems.

On the supervision side, for the most part we found that through its examinations, the regulators were
identifying and reporting the unsafe and unsound practices that the institutions engaged in, sometimes
as far back as 2003 and 2004. What we are, and have been, most critical of is the absence of timely and
forceful enforcement action when it may have made a difference. We also frequently questioned the
high ratings given to these institutions (known as CAMELS ratings) right up until shortly before the
institutions failed, especially when considering the repetitive nature of many of problems identified in
the bank examinations. Too much reliance was placed on the ability and willingness of bank
management to fix their problems through “moral suasion.” Furthermore, in rating the institutions, we
believe that the examiners often gave too much weight to the fact that the institutions were profitable
and their loans were performing and not enough to the magnitude of risks that these institutions had
taken on. In the end, the profits and loan performance were elusive.

Based on our completed reviews, we have made numerous recommendations to both OCC and OTS to
improve their respective bank examination processes. Both have been very responsive to our
recommendations and in many instances have already implemented corrective actions to address them.

The Administration and Congress are currently working on a variety of sweeping changes to the
financial regulatory environment. Certainly the current financial crisis has revealed gaps in financial
regulation that need to be addressed, such as oversight of investment banks, regulation of derivatives,
and policy implications of “too big to fail.” However, our work has shown that for regulating the safety


                   Treasury Office of Inspector General Semiannual Report—March 2010                       ii
                                                             Message From the Inspector General

and soundness of federally insured depository institutions, OCC and OTS had examination processes in
place that were able to identify problems early on and many tools available to prevent banks and thrifts
from continuing to take on levels of risk that could drive them into failure. This is not to say that the
examiners have all the tools they need, as oftentimes they are impeded by the fact that supervisory
guidance can be challenged because it is not a law or regulation. Recently, Comptroller Dugan in
addressing a group of community bankers stated that there was a “need to revisit the issue of the
appropriate regulatory response to CRE [commercial real estate] lending concentrations, especially for
construction and development lending and especially for concentrations supported by noncore
funding.” This is an acknowledgement of one problem area that we have found in our post mortems of
failed institutions and a recognition that the regulators need to do more.

Regardless of the changes that result from the Administration’s and Congress’ efforts to reform the
financial regulatory environment, the challenge for Treasury and its bank regulators will be to take the
lessons learned from the current wave of failed institutions and ensure that they do not miss this
opportunity to make fundamental and lasting changes to their supervisory approach going forward. Our
challenge will be to provide the oversight and forward looking audit work that can help the Department
and our Nation in these efforts.




Eric M. Thorson
Inspector General




          Treasury Office of Inspector General Semiannual Report—September 2009                         iii
Contents
Highlights ..................................................................................................................................... i 
Message From the Inspector General ...................................................................................... ii 
Overview of the Office of Inspector General ............................................................................ 1 
Treasury Management and Performance Challenges ............................................................. 2 
Significant Audits and Evaluations .......................................................................................... 5 
       Financial Management .................................................................................................................................5 
       Information Technology................................................................................................................................8 
       Programs and Operations ............................................................................................................................9 
           Bank Failures and Material Loss Reviews ...............................................................................................9 
           Recovery Act Audits ..............................................................................................................................17 
           Other Performance Audits .....................................................................................................................18 
Significant Investigations ........................................................................................................ 21 
       Management Implication Reports Issued ...................................................................................................23 
Other OIG Accomplishments and Activity ............................................................................. 24 
Statistical Summary ................................................................................................................. 28 
       Summary of OIG Activity ............................................................................................................................28 
       Significant Unimplemented Recommendations ..........................................................................................28 
       Summary of Instances Where Information Was Refused ...........................................................................31 
       Listing of Audit and Evaluation Reports Issued ..........................................................................................32 
       Audit Reports Issued With Questioned Costs ............................................................................................35 
       Audit Reports Issued With Recommendations That Funds Be Put to Better Use ......................................35 
       Previously Issued Audit Reports Pending Management Decisions (Over 6 Months) .................................35 
       Significant Revised Management Decisions ..............................................................................................35 
       Significant Disagreed Management Decisions ...........................................................................................36 
References to the Inspector General Act ............................................................................... 37 
Abbreviations ............................................................................................................................ 38 
This page intentionally left blank.
                                                        The Office of Investigations, under the
Overview of the Office of                               leadership of the Assistant Inspector General
Inspector General                                       for Investigations, performs investigations and
                                                        conducts initiatives to detect and prevent fraud,
The Department of the Treasury’s Office of              waste, and abuse in Treasury programs and
Inspector General (OIG) was established                 operations under our jurisdiction. The Office of
pursuant to the 1988 amendment to the                   Investigations also performs integrity oversight
Inspector General Act of 1978. OIG is headed            reviews of select Treasury bureaus.
by an Inspector General appointed by the
President, with the advice and consent of the           The Office of Counsel (1) processes all
Senate. Serving with the Inspector General in           Freedom of Information Act/Privacy Act
the immediate office is a Deputy Inspector              requests and administrative appeals on behalf of
General. OIG performs independent, objective            OIG; (2) processes all discovery requests for
reviews of Treasury programs and operations,            information held by OIG; (3) represents OIG in
except for those of the Internal Revenue Service        administrative Equal Employment Opportunity
(IRS) and the Troubled Asset Relief Program             and Merit Systems Protection Board
(TARP), and keeps the Secretary of the                  proceedings; (4) conducts ethics training and
Treasury and Congress fully informed of                 provides ethics advice to OIG employees and
problems, deficiencies, and the need for                ensures OIG compliance with financial
corrective action. The Treasury Inspector               disclosure requirements; (5) reviews proposed
General for Tax Administration performs                 legislation and regulations relating to the
oversight related to IRS. A special inspector           Department; (6) reviews administrative
general and the Government Accountability               subpoenas; (7) reviews and responds to all
Office (GAO) perform oversight related to               Gigolo requests for information about Treasury
TARP.                                                   personnel who may testify in trials; and
                                                        (8) provides legal advice to the other OIG
OIG is organized into four divisions: (1) Office        divisions.
of Audit, (2) Office of Investigations, (3) Office
of Counsel, and (4) Office of Management.               The Office of Management provides services to
OIG is headquartered in Washington, DC, and             maintain the OIG administrative infrastructure.
has an audit office in Boston, Massachusetts.           It also manages the Treasury OIG Hotline to
                                                        facilitate reporting of allegations involving
The Office of Audit performs and supervises             Treasury programs and activities. The Assistant
audits, attestation engagements, and evaluations.       Inspector General for Management oversees
The Assistant Inspector General for Audit has           these functions.
two deputies. One is primarily responsible for
performance audits, and the other is primarily          As of March 31, 2010, OIG had 146 full-time
responsible for financial management,                   staff. OIG’s fiscal year 2010 appropriation was
information technology, and financial assistance        $29.7 million.
audits.




                   Treasury Office of Inspector General Semiannual Report—March 2010                      1
                                                        in October 2008. EESA, commonly known as
Treasury Management and                                 TARP, gave the Treasury Secretary $700 billion
Performance Challenges                                  to, among other things, (1) purchase capital in
                                                        qualifying U.S.-controlled financial institutions
In accordance with the Reports Consolidation            and (2) buy, maintain, and sell toxic mortgage-
Act of 2000, the Treasury Inspector General             related assets from financial institutions.
annually provides the Secretary of the Treasury
with his perspective on the most serious                After EESA was enacted, the Department
management and performance challenges facing            aggressively moved forward to loosen the credit
the Department. The Secretary includes these            market by purchasing senior preferred stock in
challenges in Treasury’s annual agency financial        nine of the nation’s largest financial institutions.
report. In a memorandum to Secretary Geithner           Since then, hundreds of other financial
dated October 29, 2009, Inspector General               institutions have also participated in the Capital
Thorson reported one new challenge—                     Purchase Program (CPP).
management of American Recovery and
Reinvestment Act (Recovery Act) programs—               EESA established a special inspector general for
and four challenges from last year. Two                 TARP and imposed oversight and periodic
previously reported challenges were removed.            reporting requirements on both the special
The following is an abridged description of the         inspector general and GAO. GAO has reported
challenges reported and removed.                        that TARP in general and CPP in particular,
                                                        along with other efforts by the Federal Reserve
Management of Treasury’s New                            and FDIC, had made important contributions
Authorities Related to Distressed                       to help stabilize credit markets. However, GAO
                                                        also reported that many challenges and
Financial Markets (Repeat Challenge)                    uncertainties remain. GAO further noted that
Treasury, along with the Federal Reserve, the           other programs, such as the Public-Private
Federal Deposit Insurance Corporation (FDIC),           Investment Program and the Home Affordable
and the Federal Housing Finance Agency, has             Modification Program, still face implementation
taken unprecedented actions to address the              and operational challenges.
current financial crisis. To assist in those efforts,
Congress passed the Housing and Economic                As conditions improve, Treasury will need to
Recovery Act in July 2008, which gave Treasury          work with its partners to disassemble the
broad new authorities to address the distressed         structure established to support recovery efforts
financial condition of Fannie Mae and Freddie           and ensure that federal funds no longer needed
Mac. Less than 6 weeks later, the Federal               for those efforts are returned in an orderly
Housing Finance Agency put both entities into           manner to the Treasury general fund.
conservatorship.
                                                        Regulation of National Banks and Thrifts
As the turmoil in the financial markets                 (Repeat Challenge)
increased, Treasury sought and obtained
additional authorities through passage of the           Although many factors have contributed to the
Emergency Economic Stabilization Act (EESA)             turmoil in the financial markets, Treasury’s


                   Treasury Office of Inspector General Semiannual Report—March 2010                       2
                                            Treasury Management and Performance Challenges

Office of the Comptroller of the Currency              and tax relief. Treasury’s oversight
(OCC) and Office of Thrift Supervision (OTS)           responsibilities include grants for specified
did not force timely correction of unsafe and          energy property in lieu of tax credits, grants to
unsound practices by failed institutions under         states for low-income housing projects in lieu of
their supervision.                                     tax credits, increased Community Development
                                                       Financial Institutions (CDFI) Fund grants and
Both OCC and OTS have been responsive to               tax credits, economic recovery payments to
our recommendations for improving                      social security beneficiaries and others, and
supervision. It is essential; however, that OCC        payments to U.S. territories for distribution to
and OTS continue to take a critical look at their      their citizens. Many of these programs are new
supervisory processes to identify why those            to Treasury and involve very large dollar
processes did not prevent or mitigate the              amounts. As a result, Treasury faces immense
practices that led to the current crisis and what      challenges in ensuring that the programs achieve
can be done to better protect the financial            their intended purposes, provide for
health of the banking industry and consumers           accountability and transparency, and are free
going forward.                                         from fraud and abuse.

Recognizing that the focus of EESA and the             Treasury’s Recovery Act grants in lieu of tax
Recovery Act is on the current crisis, another         credit programs—for specified energy property
consideration is the need to identify, monitor,        and to states for low-income housing projects—
and manage emerging domestic and global                are estimated to cost almost $20 billion over
systemic economic risks. Moreover, these               their lives. Treasury has dedicated only a small
emerging risks may go beyond the current U.S.          number of staff to award and monitor these
regulatory structure. Treasury and its regulatory      funds. We have concerns that the current
partners must continue to diligently monitor           staffing level is not commensurate with the size
both regulated and unregulated products and            of these programs.
markets for new systemic risks that may require
action.                                                The Deputy Secretary and the Senior
                                                       Accountable Official have shown a strong
Finally, both the administration and Congress          commitment to implementing an effective
are considering proposals for regulatory reform.       control structure over Recovery Act activities
Treasury, OCC, and OTS will need to work in            and strong support for our oversight effort.
concert with the other affected federal bank
regulators to ensure a smooth and effective            Management of Capital Investments
transition to the new regulatory structure that
                                                       (Repeat Challenge)
emerges.
                                                       Managing large capital investments, particularly
Management of Recovery Act Programs                    information technology investments, is a
(New Challenge)                                        difficult challenge for any organization, whether
                                                       public or private. In prior years, we have
Treasury is responsible for overseeing an              reported on a number of capital investment
estimated $150 billion of Recovery Act funding         projects that either failed or had serious


                  Treasury Office of Inspector General Semiannual Report—March 2010                     3
                                               Treasury Management and Performance Challenges

problems. Treasury is now making the transition         as inherently high-risk. Adding to this risk in the
to a new, mission-critical telecommunications           current environment is the risk that financial
system, TNet. The overall value of the TNet             institutions and their regulators may decrease
contract is estimated at $270 million. The              their attention to BSA and OFAC program
transition, however, is now late. Treasury must         compliance as they address safety and
exercise continuous vigilance in managing its           soundness concerns.
capital investments.
                                                        Challenges Removed
Anti-Money Laundering and Terrorist
                                                        We removed corporate management as an
Financing/Bank Secrecy Act
                                                        overarching management challenge, first
Enforcement (Repeat Challenge)                          identified as a challenge in 2004, because the
                                                        Department has made significant progress in
Treasury faces unique challenges in carrying out
                                                        building up a sustainable corporate control
its responsibilities under the Bank Secrecy Act
                                                        structure. We also removed information security
(BSA) and USA Patriot Act to prevent and
                                                        as a management and performance challenge,
detect money laundering and terrorist financing.
                                                        first identified in 2001, because Treasury has
Although the Financial Crimes Enforcement
                                                        made significant strides in improving and
Network (FinCEN) is responsible for
                                                        institutionalizing its information security
administering BSA, a large number of other
                                                        controls.
federal and state entities participate in efforts to
ensure compliance with BSA. Many of these
entities also participate in efforts to ensure
compliance with U.S. foreign sanction programs
administered by Treasury’s Office of Foreign
Assets Control (OFAC).

FinCEN and OFAC have entered into
memoranda of understanding with many federal
and state regulators in an attempt to build a
consistent and effective process. However,
these instruments are nonbinding and carry no
penalties for violations.

Although BSA reports are critical to law
enforcement, past audits have shown that many
contain incomplete or erroneous data and that
examination coverage by financial institution
regulators of BSA compliance has been limited.

Given the criticality of this management
challenge to the Department’s mission, we
continue to consider BSA and OFAC programs


                   Treasury Office of Inspector General Semiannual Report—March 2010                     4
Significant Audits and                                           In connection with its audit of Treasury’s
Evaluations                                                      consolidated financial statements, KPMG
                                                                 issued a management letter that identified other
Financial Management                                             matters involving internal control and Treasury
                                                                 operations related to (1) financial reporting
Financial Audits                                                 standards for Treasury’s component entities,
                                                                 (2) opening balances, (3) intragovernmental
Consolidated Financial Statements                                transactions and activities, (4) reconciliation of
                                                                 the statement of budgetary resources to budget
KPMG LLP, an independent public accountant,
                                                                 reports, (5) review of audit logs for the database
working under our supervision, issued an
                                                                 that supports the Treasury Information
unqualified opinion on the Department’s fiscal
                                                                 Executive Repository (TIER),
years 2009 and 2008 consolidated financial
                                                                 (6) documentation of baseline configurations
statements. The audit identified significant
                                                                 for the production servers that support TIER
deficiencies related to (1) financial management
                                                                 and CFO Vision in the system security plan, and
practices at the departmental level, (2) financial
                                                                 (7) encryption of user sessions with TIER and
systems and reporting at IRS, (3) financial
                                                                 CFO Vision. These matters were identified
accounting and reporting at the Office of
                                                                 during the audit but were not required to be
Financial Stability, and (4) information system
                                                                 included in the auditor’s report. (OIG-10-035)
controls at the Financial Management Service
(FMS). The significant deficiencies related to
                                                                 Other Financial Audits
financial management practices at the
departmental level and financial systems and                     The Chief Financial Officers Act of 1990, as
reporting at IRS are considered material                         amended by the Government Management
weaknesses. KPMG also reported that the                          Reform Act of 1994, requires annual financial
Department’s financial management systems are                    statement audits of Treasury and Office of
not in substantial compliance with the Federal                   Management and Budget (OMB) designated
Financial Management Improvement Act of                          entities. OMB has designated IRS for annual
1996.                                                            financial statement audits. The financial
                                                                 statements of certain other Treasury component
In addition, the audit identified a reportable                   entities are audited pursuant to other
instance of noncompliance with laws and                          requirements or due to their materiality to
regulations related to section 6325 1 of the                     Treasury’s consolidated financial statements.
Internal Revenue Code. (OIG-10-023)

1 The internal revenue code grants the IRS the power to
file a lien against the property of any taxpayer who
neglects or refuses to pay all assessed federal taxes. Under
the internal revenue code section 6325, the IRS is
required to release a federal tax lien within 30 days after
the date the tax liability is satisfied, or has become legally
unenforceable, or the Secretary of the Treasury has
accepted a bond for the assessed tax.


                       Treasury Office of Inspector General Semiannual Report—March 2010                         5
                                                                                                     Significant Audits and Evaluations


The following table shows audit results for fiscal years 2009 and 2008.

Treasury-audited financial statements and related audits
Entity                               Fiscal year 2009 audit results                                   Fiscal year 2008 audit results

                                                       Material           Other                                         Material                Other
                                                       weak-              significant                                   weak-                   significant
                                     Opinion           nesses             deficiencies                Opinion           nesses                  deficiencies
Government Management Reform Act/Chief Financial Officers Act requirements
Department of the Treasury              UQ                 2                                     2               UQ                        1                   2
Internal Revenue Service (A)            UQ                 2                                     0               UQ                        3                   1
Other required audits
Department of the Treasury’s
Special-Purpose Financial
Statements                                        Q                 1                            0               UQ                        0                   1
Office of Financial Stability
(TARP) (A)                                      UQ                  0                            2               N/A                     (D)               N/A
Bureau of Engraving and Printing                UQ                  0                            0               UQ                        0                 0
Community Development
Financial Institutions Fund (B)                 UQ                  0                            3               UQ                        0                   2
Office of DC Pensions                           UQ                  0                            0               UQ                        0                   0
Exchange Stabilization Fund                     UQ                  0                            1               UQ                        1                   1
Federal Financing Bank                          UQ                  0                            0               UQ                        0                   0
Office of the Comptroller of the
Currency                                        UQ                  0                            0               UQ                        0                   0
Office of Thrift Supervision                    UQ                  0                            0               UQ                        0                   0
Treasury Forfeiture Fund                        UQ                  0                            0               UQ                        0                   0
Mint
   Financial statements                         UQ                  0                            0               UQ                       0                    2
   Custodial gold and silver
   reserves                                     UQ                  0                            0               UQ                       0                    0
Other audited accounts that are material to Treasury financial statements
Bureau of the Public Debt
Schedule of Federal Debt (A)                  UQ                 0                               0               UQ                       0                    0
Government trust funds                        UQ                 0                               0               UQ                       0                    1
Financial Management Service
   Treasury-managed accounts                  UQ                 0                               1               UQ                       0                    1
   Operating cash of the federal
   government                                 UQ                 0                               1               UQ                       0                    0
Management-initiated audit
FinCEN                                            UQ                   0                            0                 UQ                        0              0
Alcohol and Tobacco Tax and
Trade Bureau                                       C                  C                            C                 N/A                      N/A          N/A
UQ          Unqualified opinion
Q           Qualified opinion due to omission of a required disclosure and misstatement of certain account balances in the financial statement notes
(A)         Audited by GAO
(B)         Full-scope audit of financial statements for fiscal year 2009, audit of the Statement of Financial Position only for fiscal year 2008
(C)         Audit report not issued as of March 31, 2010. Audit of Balance Sheet only for fiscal year 2009
(D)         Entity was not audited before fiscal year 2009
N/A         Entity was not audited




                            Treasury Office of Inspector General Semiannual Report—March 2010                                                              6
                                                              Significant Audits and Evaluations


The fiscal year 2009 audits of Treasury’s                     foreign currency transactions.
component entities and its special-purpose                    (OIG-10-027)
financial statements identified the following              • The FMS information technology
material weakness and other significant                       controls over systems managed by FMS
deficiencies. These audits were performed by
                                                              and third parties. (OIG-10-018,
KPMG or other independent public
                                                              OIG-10-019)
accountants under our supervision.
                                                       The auditors also issued management letters
Material Weakness
                                                       that identified other matters that were not
                                                       required to be included in the reports on the
   • The Department’s insufficient staffing            fiscal year 2009 audits of the financial
       resources, accounting processes, and            statements of the Bureau of Engraving and
       related controls for the preparation of         Printing (BEP) (OIG-10-006), CDFI Fund
       its special-purpose financial statements.       (OIG-10-010), Office of D.C. Pensions
       (OIG-10-029)                                    (OIG-10-016), Exchange Stabilization Fund
                                                       (OIG-10-028), Federal Financing Bank
Other Significant Deficiencies                         (OIG-10-008), Mint (OIG-10-014), OCC
                                                       (OIG-10-025), and OTS (OIG-10-032) and the
   • The CDFI Fund’s controls over (1) the             fiscal year 2009 audit of the FMS Schedule of
       accounting process for estimating loan          Non-Entity Government-wide Cash
       loss reserves, (2) accounting for               (OIG-10-021). In addition, the auditors issued
       investments, and (3) the preparation and        two sensitive-but-unclassified management
       review of the financial statements.             reports that detailed FMS’s significant
       (OIG-10-009)                                    deficiency related to information technology
                                                       controls over systems managed by FMS and
   • The Exchange Stabilization Fund’s
                                                       third parties and recommended corrective
       controls over financial reporting and
                                                       actions. (OIG-10-020, OIG-10-022).
       technical accounting and monitoring of




                  Treasury Office of Inspector General Semiannual Report—March 2010                 7
                                                                                          Significant Audits and Evaluations


The following instances of noncompliance with the Federal Financial Management Improvement Act,
which all relate to IRS, were reported in connection with the audit of the Department’s fiscal year 2009
consolidated financial statements.

                                                                                                                        Type of
Condition                                                                                                               noncompliance
Core general ledger system does not conform to Federal Financial Management System Requirements contained in            Federal financial
OMB Circular.A-127, Financial Management Systems. (first reported in fiscal year 1997)                                  management systems
                                                                                                                        requirements
Material weaknesses in internal control over information security continue to threaten (1) integrity of the financial   Federal financial
statements and the accuracy and availability of financial information needed to support day-to-day decision making      management systems
and (2) confidentiality of proprietary information. (first reported in fiscal year 1997)                                requirements
Automated systems for tax-related transactions did not support the net taxes receivable amount on the balance sheet     Federal accounting
and other required supplemental information related to uncollected taxes–compliance assessments and write-offs–in       standards
accordance with Statement of Federal Financial Accounting Standards No. 7, Accounting for Revenue and Other
Financing Sources and Concepts for Reconciling Budgetary and Financial Accounting. (first reported in fiscal year
1997)
IRS’s core general ledger system for tax-related activities does not comply with the U.S. Government Standard           U.S. Government
General Ledger at the transaction level and also does not post transactions in conformance with Standard General        Standard General Ledger
Ledger posting models. (first reported in fiscal year 1997)


The status of these noncompliances, including progress in implementing remediation plans, will be
evaluated as part of the audit of Treasury’s fiscal year 2010 financial statements.

Attestation Engagement                                                         Fund. The attestation examination did not
                                                                               identify any significant deficiencies in internal
KPMG LLP, working under our supervision,                                       control or instances of reportable
issued an unqualified opinion that the Bureau of                               noncompliance with laws and regulations.
the Public Debt (BPD) Trust Fund                                               (OIG-10-005)
Management Branch’s assertions pertaining to
the schedule of assets and liabilities and related
schedule of activity of selected trust funds, as of
and for the year ended September 30, 2009, are                                 Information Technology
fairly stated. These schedules relate to the
                                                                               Federal Information Security Management Act
functions of the Trust Fund Management
                                                                               Evaluation of Treasury for Fiscal Year 2009
Branch as custodian of the Federal
Supplementary Medical Insurance Trust Fund,                                    The Federal Information Security Management
Federal Hospital Insurance Trust Fund,                                         Act of 2002 (FISMA) requires our office to
Highway Trust Fund, Airport and Airway Trust                                   perform an annual, independent evaluation of
Fund, Hazardous Substance Superfund Trust                                      Treasury’s information security program and
Fund, Leaking Underground Storage Tank                                         practices. We contracted with KPMG to
Trust Fund, Oil Spill Liability Trust Fund,                                    perform, under our supervision, the evaluation
Harbor Maintenance Trust Fund, Inland                                          of FISMA compliance for the Department’s
Waterways Trust Fund, and South Dakota                                         unclassified, non-IRS systems. TIGTA
Terrestrial Wildlife Habitat Restoration Trust                                 performed the annual evaluation for IRS. Based

                         Treasury Office of Inspector General Semiannual Report—March 2010                                                    8
                                                               Significant Audits and Evaluations

on the results reported by KPMG and TIGTA,             CDFI Fund’s Access Controls and
we determined that Treasury’s information              Configuration Management
security program was in place and was generally
consistent with FISMA.                                 We determined that the CDFI Fund has
                                                       sufficient protection in place for its network and
However, the evaluation of Treasury’s                  systems. Specifically, most CDFI Fund systems
unclassified non-IRS systems indicated that            were up to date with the latest patches. Also,
additional steps are required to ensure that           CDFI Fund staff had implemented a suite of
Treasury’s information security risk                   monitoring tools for its network that reported
management program and practices fully                 current patch levels, monitored for suspicious
comply with applicable National Institute of           activities, and provided notification to
Standards and Technology standards and                 administrators of potentially suspicious
guidelines and FISMA requirements.                     activities. However, we noted that
Specifically, (1) minimum security control             improvements are needed in key access controls
baselines were not sufficiently tested or              and in configuration management to prevent
implemented (repeat finding); (2) the breach           unauthorized users from gaining access and
notification policy required by OMB had not            compromising data on the CDFI Fund’s public
been finalized and issued (repeat finding );           web site and within its network. We found that
(3) the Departmental Offices Federal Desktop           (1) weak passwords were used in CDFI Fund
Core Configuration image was not fully                 applications and systems, (2) CDFI Fund
implemented (repeat finding); (4) BPD was not          systems were configured with insecure default
using a Security Content Automation Protocol           settings, and (3) a critical patch was not applied
validated tool; (5) FMS’s Plan of Action and           for one CDFI Fund system. In a written
Milestone was not consistently updated in              response, the CDFI Fund Director provided
accordance with bureau policy; (6) the                 plans for corrective actions that were responsive
frequency of vulnerability assessment scanning         to our seven recommendations addressing these
at BPD was not in line with bureau and                 findings. (OIG-10-037)
Treasury policy; and (7) an E-authentication risk
assessment was not performed at FinCEN.
TIGTA reported that IRS had made steady
progress in complying with FISMA                       Programs and Operations
requirements. TIGTA also found significant             Bank Failures and Material Loss Reviews
improvements in IRS information technology
contingency plan testing and additional                OCC and OTS regulate and supervise many of
improvements in annual security controls               the Nation’s banks and thrifts. Specifically,
testing, which were identified as areas needing        OCC regulates national chartered banks and
improvement in its 2008 FISMA evaluation.              OTS regulates thrifts.
TIGTA noted that IRS still needs to take action
in the areas of certification and accreditation,       In 1991, Congress enacted the Federal Deposit
and configuration management.                          Insurance Corporation Improvement Act
(OIG-CA-10-003)                                        (FDICIA) amending the Federal Deposit
                                                       Insurance Act following the failures of about
                                                       1,000 banks and thrifts between 1986 and 1990

                  Treasury Office of Inspector General Semiannual Report—March 2010                    9
                                                                      Significant Audits and Evaluations

that resulted in billions in losses to the Deposit            supervised by OCC and 2 supervised by OTS.
Insurance Fund. The amendments require the                    These MLRs are described in more detail below.
banking regulators take specified supervisory                 As of the end of the reporting period, we had
actions when they identify unsafe or unsound                  32 MLRs in progress, and we expect additional
practices or conditions.                                      bank and thrift failures in the coming months.

Section 38(k) of FDICIA requires that the                     From the 17 MLRs completed in total during
cognizant inspector general for the primary                   current economic crisis, we have seen a number
federal regulator review the failure of a financial           of trends emerge. With respect to the causes of
institution when the estimated loss to the                    institutions’ failures, we found overly aggressive
Deposit Insurance Fund becomes material                       growth strategies fueled by volatile and costly
(defined as a loss that exceeds the greater of                wholesale funding (e.g., brokered deposits,
$25 million or 2 percent of the institution’s total           Federal Home Loan Bank loans, etc.); risky
assets). As part of the material loss review                  lending products such as option adjustable rate
(MLR), we determine the causes of the failure                 mortgages; unsound underwriting; high asset
and assess the supervision over the institution,              concentrations to include high concentrations in
including the implementation of the Prompt                    commercial real estate loans; and inadequate
Corrective Action (PCA) provisions in                         risk management systems. In addition, the
FDICIA. 2 As appropriate, we also make                        management and boards of these institutions
recommendations for preventing any such loss                  were often not effective in monitoring and
in the future.                                                managing their risks. The economic recession
                                                              and in particular the decline in the real estate
Since the current economic crisis began in 2007               market was also a major factor in most failures.
through March 31, 2010, FDIC and other
regulators have closed 208 banks and thrifts.                 With respect to OCC’s and OTS’s supervision,
Sixty-five (65) of these institutions were                    we found that the regulators conducted regular
regulated by Treasury. Sixteen (16) of these                  and timely examinations and identified
institutions did not require an MLR to be                     operational problems, but were slow to take
performed as the loss to the Deposit Insurance                timely and aggressive enforcement action. We
Fund was not material. In prior semiannual                    also found that in rating these institutions,
reports, we reported on 11 MLRs completed                     examiners gave too much weight to the fact that
during the current crisis. This semi-annual                   the institutions were profitable and their loans
reporting period we completed 6 MLRs , 4                      were performing and not enough weight given
                                                              to the amount of risk that these institutions had
                                                              taken on. We also noted that regulators took the
2 PCA is a framework of supervisory actions, set forth in
law, for insured institutions that are not adequately         appropriate PCA actions when warranted but
capitalized. It was intended to ensure that action is taken   those actions did not save the institutions.
when an institution becomes financially troubled in order     While it is too soon to comment on the
to prevent a failure or minimize resulting losses. These
actions become increasingly severe as the institution falls
                                                              effectiveness of the PCA provisions of FDICIA
into lower capital categories. The capital categories are     more generally, this is an area we believe needs
well-capitalized, adequately capitalized, undercapitalized,   to be examined further.
significantly undercapitalized, and critically
undercapitalized.


                     Treasury Office of Inspector General Semiannual Report—March 2010                       10
                                                               Significant Audits and Evaluations

   OCC-Regulated Institutions Reviewed                 by its prior regulator and the start of the first
                                                       full-scope examination by OCC.
Silverton Bank, N.A. of Atlanta, Georgia (closed
May 1, 2009; estimated loss to the Deposit             During our MLR, OCC completed an internal
Insurance Fund, $608.3 million)                        lessons-learned review of the Silverton failure.
                                                       That review also concluded that the decision to
The primary cause of Silverton’s failure was an        approve the conversion was flawed. Among
excessive concentration in commercial real             other things, the reviewers recommended that
estate (CRE) loans. Deficient credit risk              OCC consider a quality assurance review
management processes, combined with the                process over charter conversions. In subsequent
rapid decline in the economic environment,             discussions, OCC officials stated that
resulted in the deterioration of Silverton’s asset     performing second-level reviews of charter
quality, including a substantial volume of             conversions prior to approval would be a better
problem loans and significant loan losses. These       approach than an after-the-fact quality
loan losses, along with the high cost of funding,      assurance review. Such a process, however, had
significantly diminished earnings and capital,         not yet been formalized in OCC policies and
impairing Silverton’s ability to successfully          procedures.
implement and sustain its business strategy.
                                                       At the time our report was issued, OCC was in
OCC approved Silverton’s conversion from a             the process of planning and taking steps to
state-chartered bank to a nationally chartered         address our recommendations that OCC
bank in August 2007 despite significant                (1) promptly assign an examiner-in-charge and
weaknesses identified by OCC examiners during          ensure continuous supervisory coverage of
a preconversion examination and the declining          converted institutions, (2) determine that banks
housing market. We believe that OCC should             seeking conversion to a national charter
not have approved Silverton’s conversion in            satisfactorily address significant deficiencies
August 2007 and instead should have deferred           identified by OCC or prior regulators before
approval until those weaknesses had been               approval, and (3) formalize the process for
addressed.                                             second-level reviews of charter conversions.
                                                       (OIG-10-033)
Subsequent to the bank’s conversion, we believe
that OCC could not have done anything                  Omni National Bank of Atlanta, Georgia (closed
significantly different to prevent Silverton’s         March 27, 2009; estimated loss to the Deposit
failure and the material loss to the Deposit           Insurance Fund, $288.2 million)
Insurance Fund. That said, there was a serious
lapse in OCC’s supervision of Silverton shortly        Omni failed because of significant losses in
after its conversion and swifter action might          CRE loans. The bank grew rapidly from 2003
have reduced the bank’s aggressive growth and          through 2008, in large part from its increased
amount of loss to the Deposit Insurance Fund.          number of CRE loans. The bank’s board of
Specifically, an examiner-in-charge was not            directors and management failed to adequately
immediately assigned to Silverton. Furthermore         control concentration risk or ensure that
a 17 month gap existed between completion of           adequate internal controls over lending were
the last joint full-scope examination of the bank      implemented. Omni’s lack of controls led to

                 Treasury Office of Inspector General Semiannual Report—March 2010                         11
                                                               Significant Audits and Evaluations

deficient underwriting, credit administration,         the bank, OCC failed to perform quarterly
and appraisal practices. The bank’s most               monitoring activities. As a result, OCC was
problematic CRE loans were short-term                  unaware of the deterioration of the bank’s
redevelopment loans originated by its                  condition until its January 2008 full-scope
Community Development Lending Division.                examination. OCC also had not established a
The bank’s underwriting of redevelopment               formal policy for rotating examiners-in-charge
loans relied extensively on anticipated                of midsize and community banks. At Omni, the
appreciation in property values and far less on        same examiner-in-charge was in place during
borrowers’ creditworthiness or ability to repay        four consecutive examination cycles, from 2003
obligations. The bank’s deficiencies were              through 2007. During those cycles, few
exacerbated by the decline in the real estate and      problems were identified, and the problems that
secondary loan markets. These declines made it         were noted were not fully corrected. OCC
necessary for Omni to foreclose on a high              acknowledged that many of the deficiencies
volume of overvalued properties and recognize          cited in the report for the examination that
significant losses when borrowers could not sell       began in January 2008 had existed in prior years
properties to repay their obligations. The             but had not previously been identified as
Community Development Lending Division                 problems.
also engaged in questionable lending practices,
which were under investigation by OCC at the           OCC acted forcefully against the bank in 2008
time of our MLR. We also referred these                when it appropriately used its PCA authority.
matters to the Treasury Inspector General’s            Because of reporting irregularities, OCC
Office of Investigations.                              required the bank to re-file its December 31,
                                                       2007, call report. The updated call report
OCC’s supervision of Omni was inadequate and           disclosed that the bank was at the adequately
likely led to greater losses to the Deposit            capitalized level as of December 31, 2007, and
Insurance Fund. Although OCC performed                 would have been prohibited from accepting
timely full-scope examinations of the bank, it         some of the $120 million in brokered deposits it
was not until the examination began in January         had acquired during the first 6 months of 2008.
2008 that OCC fully identified Omni’s lack of          Omni’s ability to obtain these brokered deposits
management controls and oversight,                     may have increased the loss to the Deposit
uncontrolled asset growth, and high-risk unsafe        Insurance Fund.
and unsound lending practices. The conditions
cited in the report for this examination resulted      We also reported that OCC took formal action
in OCC’s downgrading the bank’s CAMELS                 against Omni but that action took nearly 9
composite rating from 2 to 5 and implementing          months. Specifically, in February 2008, OCC
formal enforcement action. These deficiencies,         examiners informed Omni that the bank’s
however, had existed at the bank for several           condition warranted a downgrade and formal
years and were not identified in prior                 enforcement action. OCC, however, did not
examinations.                                          implement a consent order until October 2008.
                                                       OCC officials cited the following reasons for
We also identified two other matters that              the length of time it took to implement the
negatively affected OCC’s supervision of Omni.         consent order: (1) there was no immediate need
In 2007, a time period critical to the decline of      to stop unsafe and unsound practices since the

                 Treasury Office of Inspector General Semiannual Report—March 2010                  12
                                                               Significant Audits and Evaluations

bank had ceased redevelopment lending and              actions regarding periodic monitoring and the
other deficient lending practices and (2) to take      rotation of examiners-in-charge were responsive
formal enforcement action, OCC must be able            to our recommendations. (OIG-10-017)
to introduce into evidence sufficient findings
and legal support—the report of examination is         TeamBank, National Association of Paola,
typically used to document the findings and            Kansas (closed March 20, 2009; estimated loss
legal support, and was issued in September 2008        to the Deposit Insurance Fund, $98.4 million)
with the consent order following within 3
weeks. While we acknowledged OCC’s need to             TeamBank failed primarily because its board
develop sufficient support for an enforcement          and management did not provide effective
action, we believe the supervisory process used        oversight and establish adequate controls before
to issue the Omni consent order was slow and           embarking on a high-risk growth strategy with a
pointed to a need for OCC to reassess its              concentration in CRE loans, as well as its
process.                                               deficient underwriting and credit administration
                                                       and heavy reliance on non-core funding. In fact,
We recommended that OCC (1) review                     the chief executive officer/president dominated
processes to ensure that more timely                   the lending function as TeamBank’s de facto
enforcement action is taken once the need for          chief credit officer. A decline in the real estate
such action is identified; (2) impress upon            market exacerbated these conditions.
examiner staff the importance of completing all
activities in annual supervisory cycles, including     OCC’s supervision did not adequately address
quarterly monitoring, and ensure that                  TeamBank’s problems to prevent a material loss
supervisors see that quarterly monitoring              to the Deposit Insurance Fund. OCC did not
activities are scheduled and carried out; and          raise significant issues to the level of matters
(3) implement a policy for examiner-in-charge          requiring attention (these are items noted by the
rotation for midsize and community banks.              examiner during an examination that deviate
                                                       from sound governance, internal control, and
OCC agreed that there were shortcomings in its         risk management principles, which may
supervision of Omni but maintained that the            adversely affect the bank’s earnings or capital,
timing of the October 2008 consent order was           risk profile, or reputation if not addressed) in
in compliance with its policy. OCC also agreed         the 2006 examination. In addition, OCC
that periodic monitoring is integral to effective      examiners did not identify that TeamBank was
supervision and stated it would continue to            being controlled by a chief executive
reinforce this expectation to examining staff.         officer/president with too much responsibility
OCC also agreed that there is a benefit to             to manage the bank’s risk profile and growth
formalizing a rotation policy for midsize and          strategy until 2008. Furthermore, OCC did not
community banks and stated that it was                 review TeamBank’s incentive compensation or
developing such a policy. While we believe             bonus plans nor ensure that TeamBank
timely enforcement action was needed, we               conducted stress testing. The bank’s credit
accept OCC’s assertion that current policies are       administration and loan supervision practices,
sufficient and consider our recommendation             the level of classified assets, and a number of
concerning the timeliness of enforcement action        risk management issues should have been
to be closed. OCC’s completed and planned

                 Treasury Office of Inspector General Semiannual Report—March 2010                    13
                                                                 Significant Audits and Evaluations

addressed in 2007 by examiners. We also                 As a byproduct of its supervision over CNB,
concluded that OCC appropriately used its PCA           OCC had extensive internal discussions and
authority as TeamBank’s capital ratio fell to           worked with other supervisory agencies to
undercapitalized.                                       provide proper guidance to the bank on risk-
                                                        weighting of the downgraded CMOs.
OCC concurred with our recommendation to                Subsequently, OCC issued additional guidance
emphasize to examiners the need to properly             for risk management of structured investment
use matters requiring attention for supervisory         securities.
concerns, adequately assess the responsibilities
of a controlling official within a bank, review         As a regulatory matter, current law and
incentive compensation and bonus plans, and             regulatory standards permit banks to purchase
ensure that banks conduct transactional and             investment grade CMOs without any statutory
portfolio stress testing when appropriate.              limitation. Given the experience with CNB and
(OIG-10-001)                                            the National Bank of Commerce, which failed
                                                        due to significant losses from preferred stock
Citizens National Bank of Macomb, Illinois              holdings in the Federal National Mortgage
(closed May 22, 2009; estimated loss to the             Association and the Federal Home Loan
Deposit Insurance Fund, $26 million)                    Mortgage Corporation, we believe that
                                                        circumstances and conditions point to a
Citizens National Bank (CNB) failed because             potentially vulnerable regulatory area. 3
management undertook a high-risk strategy of
investing heavily in private-label collateralized       We recommended that OCC (1) assess the
mortgage obligations (CMO) and CRE loan                 adequacy of guidance on risk management of
participations funded principally with brokered         structured investment securities after it has been
deposits. This strategy led to rapid growth and         in use for a reasonable time and (2) work with
high concentrations in CMOs and CRE loan                its regulatory partners to determine whether to
participations. CNB’s management and board              propose legislation or change regulatory
did not establish controls commensurate with            guidance to establish limits or other controls for
the risks associated with these assets. Significant     bank investments.
portions of the CMOs and CRE loan
participations subsequently went into default           In response to the first recommendation, OCC
and were written off, causing the bank to               agreed that it is important to have an ongoing
become undercapitalized. There were also                process to assess the adequacy of its bank
certain transactions related to the bank that are       supervision policies. In this regard, its policy
under further OCC review.                               experts respond to questions from bankers and
                                                        examiners regarding policy implementation. The
We believe that OCC could not have done                 interaction enables them to recognize situations
anything significantly different to prevent             where clarifications or additional guidance are
CNB’s failure and the material loss to the              needed. Also, in response to the second
Deposit Insurance Fund. As CNB’s capital
levels fell, OCC also took appropriate actions
                                                        3OIG, Safety and Soundness: Material Loss Review of National
under its PCA authority.                                Bank of Commerce (OIG-09-042; issued Aug. 6, 2009).


                  Treasury Office of Inspector General Semiannual Report—March 2010                               14
                                                                Significant Audits and Evaluations

recommendation, OCC stated that it is too early        OTS’s supervision of First Bank of Idaho did
to say whether the final outcome of the                not prevent a material loss to the Deposit
deliberations with its regulatory partners will        Insurance Fund. OTS identified credit
include changes in bank investment limits or           concentrations early on at the thrift but did not
risk management expectations. It will continue         adequately address the risk associated with
to study the situation and work with its               them. OTS took enforcement action against the
regulatory partners when appropriate.                  thrift only after the concentrations became
                                                       problematic. In addition, OTS reached
We consider the actions taken and planned by           supervisory judgments on two matters in 2006
OCC responsive to the recommendations. We              that were inconsistent with First Bank of
plan to evaluate OCC’s process for updating            Idaho’s rising risk profile. First, OTS did not
guidance in the future. We will also monitor the       take exception to the thrift’s lowering of its
progress of the interagency deliberations with         target risk-based capital ratio from 11 percent to
respect to bank investment limits or risk              10.5 percent. Second, OTS upgraded the thrift’s
management expectations as part of our future          CAMELS 4 composite rating to 1. OTS also did
planned work. (OIG-10-038)                             not identify the thrift’s improper use of interest
                                                       reserves prior to its March 2009 examination.
   OTS-Regulated Institutions Reviewed                 We referred the thrift’s inappropriate use of
                                                       interest reserves to the Treasury Inspector
First Bank of Idaho, Ketchum, Idaho (closed;           General’s Office of Investigations.
April 24, 2009; estimated loss to the Deposit
Insurance Fund, $174.6 million)                        We concluded that OTS used its authority
                                                       under PCA in accordance with PCA
First Bank of Idaho failed primarily because of        requirements.
(1) significant loan delinquencies and losses
incurred on construction and land loans and            OTS conducted an internal failed bank review
(2) inadequate capital relative to the risk levels     of First Bank of Idaho and, among other things,
of its loans. These loans were concentrated in         identified four areas of weakness in OTS’s
resort areas that experienced severe declines          supervisory response to First Bank of Idaho’s
when the real estate market deteriorated.              concentrations in higher-risk loan areas. Our
Starting in 2008, First Bank of Idaho relied on        MLR affirmed OTS’s internal findings and the
brokered deposits and federal borrowings due           need for corrective action.
to its unstable funding structure, which included
an unusually high amount of uninsured                  OTS concurred with our recommendations that
deposits. As the condition of the thrift               it ensure (1) action is taken on its internal failed
deteriorated, First Bank of Idaho faced
restrictions on its acceptance of brokered             4 CAMELS is an acronym for performance rating
deposits, and limited access to federal                components for financial institutions: Capital adequacy,
                                                       Asset quality, Management administration, Earnings,
borrowings. The losses in high-risk loans              Liquidity, and Sensitivity to market risk. Numerical values
combined with the thrift’s inability to obtain         range from 1 to 5, with 1 being the best rating and 5
reliable funding created a liquidity crisis that       being the worst. Each institution is also assigned a
                                                       composite rating based on an assessment of its overall
prompted OTS to close the thrift.                      condition and level of supervisory concern.


                 Treasury Office of Inspector General Semiannual Report—March 2010                             15
                                                                Significant Audits and Evaluations

bank review of First Bank of Idaho and                  noncash capital contribution of a participation
(2) examiners sufficiently consider a thrift’s risk     loan to ASB by its holding company.
profile when deciding whether to allow the
thrift to lower its internal capital targets and        OTS conducted an internal failed bank review
when determining the thrift’s CAMELS ratings.           of ASB’s failure and found that the failure
In a written response, OTS stated that it had           primarily resulted from (1) losses related to the
issued guidance on prudent CRE loan workouts            thrift’s significant mortgage banking operation
in October 2009 to remind examiners to                  and an excessive concentration in held-for-sale
appropriately review CRE loans, including loans         loans and (2) inadequate management and
supported by interest reserves. (OIG-10-036)            insufficient independence from the operations
                                                        of American Sterling Corporation, the thrift’s
                                                        holding company. The review concluded that
American Sterling Bank of Sugar Creek,                  OTS should have (1) taken increasingly
Missouri (closed April 17, 2009; estimated loss         aggressive steps with ASB’s management and
to the Deposit Insurance Fund, $41.9 million)           board to scale back or at least minimize the
                                                        scope of the institution’s mortgage operation
The causes of American Sterling Bank’s (ASB)            and (2) placed more emphasis on ensuring that
failure were (1) losses sustained by its mortgage       supervision and administration of the thrift by
banking operation and (2) ineffective                   its board and management were not subject to
management and inadequate board oversight.              the dominating adverse influence of the chief
Among other things, ASB senior management               executive officer and the management of the
engaged in a litany of improper accounting              corporation. Our MLR affirmed OTS’s internal
transactions starting in 2007 that masked the           findings and the need for earlier corrective
thrift’s deteriorating financial condition. We          action.
referred these transactions to the Treasury
Inspector General’s Office of Investigations.           We also concluded that as ASB adjusted and
The thrift’s inaccurate financial reporting             re-filed its financial reports as required by OTS,
delayed OTS from taking required prompt                 OTS properly and promptly used its authority
corrective action as the thrift’s capital was           under PCA.
depleted.
                                                        We recommended that OTS (1) ensure that
OTS’s supervision did not adequately address            action is taken on its internal failed bank review
ASB’s problems early enough to prevent a                of ASB; (2) remind supervisory and examination
material loss to the Deposit Insurance Fund.            staff of the importance of requiring thrifts to
OTS did not require ASB to scale back its               hold capital to mitigate their recourse exposure
mortgage banking operation even though the              on sold loans; (3) remind supervisory and
bank was experiencing continuous losses and             examination staff to scrutinize capital
high staff turnover. In addition, OTS did not           contributions made to thrifts, especially
enforce federal banking regulations or follow its       noncash capital contributions; and (4) ensure
own guidance requiring ASB to hold additional           examiners take forceful action to mitigate losses
capital to mitigate its recourse exposure to sold       whenever a thrift’s line of business incurs losses
loans. OTS also did not adequately review a             that threaten the viability of the institution. OTS
                                                        concurred with our recommendations and

                  Treasury Office of Inspector General Semiannual Report—March 2010                     16
                                                                   Significant Audits and Evaluations

agreed to implement the recommended actions                Recovery Act funds and whether such
in a timely manner. In a written response, OTS             personnel are adequately trained. To do so, the
noted that it issued new internal guidelines in            Board developed a survey instrument to obtain
May 2009 to ensure appropriate enforcement                 a benchmark of the current acquisitions and
action and issued a memorandum to thrift chief             grants workforce and to capture projected
executive officers in July 2009 to address asset           workforce data over the next year. We asked
and liability concentrations and related risk              Treasury’s Senior Accountable Official to
management practices. (OIG-10-011)                         administer the survey to its non-IRS workforce
                                                           responsible for Recovery Act acquisitions and
                                                           grants.
Recovery Act Audits
During this semiannual period, we issued two               We found that Treasury’s survey results were
audit reports as part of our ongoing oversight of          unreliable for making critical judgments on the
Treasury’s more than $20 billion of non-IRS                adequacy of its Recovery Act workforce.
spending authority under the American                      Treasury management assessed its current
Recovery and Reinvestment Act of 2009                      contracts and grants workforce as adequate, but
(Recovery Act). The two reports issued during              survey responses did not support this
this period were part of government-wide                   assessment. Furthermore, the workforce within
reviews coordinated by the Recovery                        the Office of the Fiscal Assistant Secretary
Accountability and Transparency Board. 5 We                overseeing $20 billion (88 percent) of the
consider our Recovery Act oversight a high                 estimated $22 billion in Recovery Act grants in
priority along with our mandated work.                     lieu of tax credits programs were not required to
                                                           complete the survey. As a result, we concluded
Treasury Should Ensure That Assessments of                 that Treasury’s process for ensuring the
Staffing, Qualifications, and Training Needs Are           completeness and reasonableness of survey
Based on Reliable Survey Data                              responses was insufficient.

The Recovery Act requires that the Recovery                To address workforce concerns, we
Accountability and Transparency Board                      recommended that Treasury
determine whether there are sufficient qualified           (1) comprehensively assess the adequacy of
acquisition and grant personnel overseeing                 staffing levels, qualifications, and training of
                                                           personnel responsible for Recovery Act
                                                           contracts and grants, including the payments in
5 The Recovery Accountability and Transparency Board       lieu of tax credit programs, and consider the
was created by the Recovery Act with two goals: (1) to
provide transparency in relation to the use of Recovery    impact that the Recovery Act workload has on
Act-related funds, and (2) to prevent and detect fraud,    other mission-critical activities and take action
waste, and mismanagement. In addition, the Board           based on this assessment; and (2) ensure that
maintains the Recovery.gov website that presents data on
how Recovery money is being distributed by federal         adequate policies and procedures are in place to
agencies and how the funds are being used by the           provide reliable and complete data. Treasury
recipients. The Board is comprised of a Chairman           management concurred with our
appointed by the President and 12 Inspectors General,
including the Treasury Inspector General.                  recommendations and took action to increase
                                                           the Recovery Act team and re-administer the
                                                           survey instrument. (OIG-10-002)

                   Treasury Office of Inspector General Semiannual Report—March 2010                      17
                                                                Significant Audits and Evaluations

Improvement Is Needed in Treasury’s Data               oversight of the data quality reviews; and
Quality Reviews                                        (3) ensure that the CDFI Fund amend its
                                                       existing policies and procedures to include steps
The Recovery Act provides for an                       to identify the proper source documents to
unprecedented level of accountability and              review and procedures to be applied so that
transparency for tax dollars spent on economic         reviews are conducted consistently.
recovery. Recipients of Recovery Act funds are         (OIG-10-034)
required to provide a quarterly report on the use
of those funds under section 1512 of the act.
OMB guidance to agencies requires that they            Other Performance Audits
develop internal policies and procedures for           Suspicious Activity Report Data Quality
reviewing recipient-reported data, and the             Requires FinCEN’s Continued Attention
Recovery Accountability and Transparency
Board has requested that inspectors general            One of FinCEN’s critical functions under BSA
audit their respective agency’s data quality           is the collection, maintenance, and
review process. Because of the size of                 dissemination of data on suspicious financial
Treasury’s grants-in-lieu-of-tax-credit Recovery       transactions. These data are collected through
Act programs for specified energy property and         suspicious activity reports (SAR) filed by
low-income housing and because recipients              financial institutions, including depository
under these programs are required to report            institutions, money services businesses, casinos
section 1512-like data to Treasury, we included        and card clubs, and securities and futures firms.
the Office of the Fiscal Assistant Secretary,          IRS, through its Enterprise Computing Center
which administers the programs, in the scope of        in Detroit, Michigan, serves as the government’s
our work.                                              central repository for BSA data. IRS maintains
                                                       the information technology infrastructure and
We found that while the office has a process for       operations needed to process SAR data and
reviewing project performance reports under            convert the information to standardized
the low-income housing program, it had no              electronic records for use by law enforcement
system in place for collecting recipient data          and regulatory agencies. Our office has issued
under the specified energy property program.           three prior audit reports on SAR data quality 6 .
We also noted that Treasury needed to establish        Each reported that a large percentage of SARs
written procedures for department wide                 contained missing or inaccurate data.
oversight of data quality reviews and the need
for the CDFI Fund to strengthen its recipient          Our latest audit concluded that SAR data quality
data quality reviews.                                  had not significantly improved by 2006. We
                                                       found that 59 percent of the approximately
Treasury management agreed with our
recommendations to (1) ensure the Office of
                                                       6 FinCEN: Heightened Management Attention Needed Over
the Fiscal Assistant Secretary establishes a
                                                       Longstanding SAR Data Quality Problems, OIG-05-033
system for recipients under the specified energy       (Mar. 23, 2005); FinCEN: Reliability of Suspicious Activity
property program to submit annual project              Reports, OIG-03-035 (Dec. 18, 2002); The Financial Crimes
performance reports; (2) establish written             Enforcement Network Suspicious Activity Reporting System, OIG-
                                                       99-032 (Jan. 25, 1999).
policies and procedures for agency-wide

                 Treasury Office of Inspector General Semiannual Report—March 2010                                18
                                                               Significant Audits and Evaluations

1.1 million SARs filed in fiscal year 2006             aware of some of the control issues identified
contained omissions or incorrect, inconsistent,        by our audit and was working to correct the
or inappropriate information in 1 or more of 17        deficiencies. IRS officials stated that they were
data fields that FinCEN deemed critical to law         working with FinCEN to correct the problems
enforcement. SARs filed by money services              related to the processing of BSA data.
businesses had the highest percentage of data
quality problems (88 percent), followed by             We recommended that FinCEN (1) continue
SARs filed by securities and futures firms             and enhance its filer education and outreach
(50 percent), casinos and card clubs                   programs; (2) identify and refer to federal
(49 percent), and depository institutions              regulators those financial institutions with
(34 percent). The critical fields that most often      significant and recurring SAR quality problems;
had missing or erroneous data were related to          (3) coordinate with IRS to evaluate, implement,
the subject’s taxpayer identification number,          and improve controls over SAR data; and
address, and name.                                     (4) request that IRS periodically notify FinCEN
                                                       of SARs containing significant errors or missing
The manner in which many SARs were                     critical data fields.
completed suggests that the filers should have
used more due diligence in preparing the               In a written response, FinCEN noted that the
submissions. Some of the missing data that we          findings in the report were based on SAR data
believe should have been available to the filer        filed in fiscal year 2006 and that FinCEN has
are the type of suspicious activity, the               since completed efforts to improve the quality
institution’s address, and the location of the         and integrity of SAR data. FinCEN concurred
suspicious activity.                                   with our recommendations and noted that it has
                                                       issued specific guidance to enhance filer
SAR data quality problems diminish the                 education, established an initiative to identify
usefulness of the data for FinCEN, law                 systemic filing errors, and worked with federal
enforcement, and other users. We also found            regulators to resolve many of those types of
disparities among similar institutions in the          errors. FinCEN also stated that it has worked
percentage of SARs they submitted with                 with IRS to resolve matters associated with
missing or erroneous data. These disparities           recording, processing, accounting for, and
raise the question of why certain institutions are     loading SARs. As part of its corrective action,
consistently able to submit a higher percentage        FinCEN planned to have a SAR validation
of complete and accurate SARs than others.             process in place to identify all SAR filings with
                                                       significant errors for its compliance staff to
In addition, we found that system controls over        monitor. FinCEN also planned to launch a
the loading and processing of SAR data needed          program to modernize BSA information
improvement. The control weaknesses                    management, analysis, and dissemination.
prevented thousands of SARs with errors and            (OIG-10-030)
other data quality problems from being
identified and corrected during SAR processing.
They affected the quality of the SAR data and in
some cases the availability of the information to
law enforcement. FinCEN management was

                 Treasury Office of Inspector General Semiannual Report—March 2010                     19
                                                              Significant Audits and Evaluations

Bureau of Public Debt’s Administrative
Resource Center Processing of Personnel
Actions for the CDFI Fund

During an audit of the procurement process
that the CDFI Fund used for its information
technology development and support contracts,
we noted several issues with the Bureau of
Public Debt’s Administrative Resource Center
(ARC) processing of the Fund’s personnel
actions. We did not conduct an audit of ARC’s
processing of personnel actions, but we
consider these matters serious enough to
warrant corrective action by management.

Specifically, we found that ARC processed a
noncompetitive promotion for a CDFI Fund
employee without obtaining all appropriate
documentation from the Fund. ARC also did
not properly maintain adequate records for the
processed personnel action.

To address these matters, we recommended that
the ARC take actions to obtain required
documentation from clients, maintain complete
position descriptions in HR Connect, Treasury’s
human resource processing system, and ensure
that official personnel records are properly
maintained. ARC concurred with our findings
and implemented corrective actions.
(OIG-CA-10-005)




                Treasury Office of Inspector General Semiannual Report—March 2010             20
                                                      Improper Acceptance of Gifts by a Treasury
Significant Investigations                            Official
BPD Annuitant Theft Investigation
                                                      We initiated an investigation of possible ethical
On May 19, 2009, our office was contacted by          violations by a senior official of Treasury’s
the Office of D.C. Pensions regarding the             Office of Environmental Safety and Health. It
suspected theft of annuity payments to a              was alleged that the senior official was allowed
deceased retired Metropolitan D.C. police             to attend a conference without paying the
officer. More specifically, the pension office        required conference registration fee on two
continued to electronically deposit annuity           occasions. The investigation confirmed the
payments into the annuitant’s bank account            allegation. The senior official claimed to be
after the retired officer’s death in July 2005.       unaware of the Treasury regulations which
Subsequently, approximately $54,000 in pension        require an employee to obtain permission to
funds went into the account and was                   attend the conference without paying the
withdrawn.                                            required fees. The results of the investigation
                                                      have been sent to Departmental Offices for
It has been determined the annuitant’s daughter       administrative remedies.
was responsible for unlawfully receiving the
benefits. Consequently, BPD and the Office of         Abuse of Official Government Position by an
D.C. Pensions are in the process of reclaiming        FMS Official
the funds. The U.S. Attorney’s Office for the
District of Columbia declined criminal                We completed an investigation concerning
prosecution in the matter.                            allegations that an FMS senior official used
                                                      public office for private gain. Specifically, it was
Unauthorized Use of Government Credit Card            alleged the official solicited numerous FMS
by BEP Employee                                       employees to attend a professional conference
                                                      in which the senior official received personal
Our office completed an investigation regarding       compensation for presenting at the conference.
a BEP employee who misused a government-
issued credit card while on official travel.          Our investigation determined the FMS official
During our investigation, the employee                violated both criminal law and Treasury policy
admitted charging unauthorized expenses               by soliciting and approving training requisitions
totaling approximately $7,500 to the card.            and utilizing government funds to register FMS
The employee paid the balance of the charges          employees for the conference. The U.S.
incurred for the unauthorized expenses and            Attorney’s Office for the District of Maryland
subsequently resigned prior to the issuance of        declined criminal prosecution of the senior
any disciplinary action.                              official; therefore, the matter has since been
                                                      referred to FMS for administrative remedies.




                Treasury Office of Inspector General Semiannual Report—March 2010                       21
                                                                           Significant Investigations

Abuse of Official Government Position by U.S.           numerous Treasury checks worth over $100,000
Mint Official                                           from the U.S. mail in Baltimore, Maryland.

We received information from the Mint alleging          Update
that a senior Mint official misused his official
position. Specifically, it was alleged that the             • On October 23, 2009, Tandria Boyd
official circumvented the terms and conditions                   was sentenced to 30 months in prison
of a Mint Penny Exchange Program by                              followed by 3 years of supervised release
soliciting other Mint employees to purchase                      for conspiracy to commit mail fraud,
coins on his behalf, thus exceeding the                          forged endorsement on a Treasury
maximum allowable coin purchase for an
                                                                 check, and aggravated identity theft.
individual.
                                                                 Boyd was also ordered to pay restitution
                                                                 in the amount of $10,000.
Our investigation revealed that the Mint official
misused his position as a senior executive by
requesting subordinate employees to perform                 • On October 23, 2009, Chamarko Amin
actions outside of their job description on his                  was sentenced to 48 months in prison,
behalf. We also determined that statements                       followed by 3 years of supervised
given by the Mint official during the                            release, on charges of conspiracy to
investigation were untruthful and misleading.                    commit mail fraud and aggravated
Subsequently, the matter was presented to the                    identity theft. Amin was also ordered to
U.S. Attorney’s Office for criminal prosecution,                 pay restitution in the amount of
but prosecution was declined in lieu of                          $104,446.
administrative remedies against the official.
                                                            • On October 30, 2009, David Cooley
In October 2009, we forwarded the results of
                                                                 was sentenced to 65 months in prison
this matter to the Mint. As a result, the official
                                                                 followed by 3 years of supervised release
received a letter of reprimand and was ordered
                                                                 for conspiracy to commit mail fraud and
to return the improperly obtained coins.
                                                                 aggravated identity theft. Cooley was
                                                                 also ordered to pay restitution in the
                                                                 amount of $104,446.
The following are updates to significant
investigative activities reported in prior
semiannual reports.                                         • On January 7, 2010, Leonard Jenkins
                                                                 was sentenced to 3 years in prison
Sentencing in Postal Theft Conspiracy                            followed by 3 years of supervised release
Targeting Treasury Checks                                        for mail fraud, theft of mail, and
                                                                 aggravated identity theft. Jenkins was
As previously reported, 13 subjects were                         also ordered to pay restitution in the
indicted on June 19, 2008, for federal mail                      amount of $104,446.
fraud, aiding and abetting, and forgery
violations stemming from a scheme to steal


                  Treasury Office of Inspector General Semiannual Report—March 2010                    22
                                                                         Significant Investigations

Management Implication Reports                         exchange currency that, due to its condition,
                                                       might not otherwise be accepted as legal tender.
Issued                                                 This program, known as the Mutilated Currency
During the reporting period, we issued                 Exchange Program, is administered by BEP.
management implication reports (MIR)                   BEP maintains a professional staff of forensic
summarizing systemic vulnerabilities that we           experts who examine each note that is
observed related to the Mint’s Mutilated Coin          submitted for exchange to determine its
Exchange Program and the BEP Mutilated                 authenticity before redeeming it.
Currency Exchange Program.
                                                       In January 2007, BEP management contacted
Report on Mint’s Mutilated Coin Program                our office and requested assistance after noting
                                                       a series of requests for large-value currency
In 1911, Treasury established a program to             redemptions that appeared suspicious.
allow people and businesses to exchange coins
that were damaged by flood, fire, or other             We have participated in several joint
means and therefore not acceptable as legal            investigations with the U.S. Secret Service and
tender. In recent years, the Mint has observed a       U.S. Immigration and Customs Enforcement,
significant increase in the number and quantity        which have the authority to affect asset seizure
of mutilated coins being submitted for                 and forfeiture, in investigations involving
redemption.                                            redemption of intentionally mutilated currency.
                                                       To date, these investigations have led to many
The increase in mutilated coin submissions has         significant seizures by other federal agencies.
raised concern by the Mint and led to inquiries
of various entities redeeming coins about the          These investigations revealed numerous
source of the coins. The Mint’s concerns               deficiencies in the Mutilated Currency Exchange
centered on the value and frequency of                 Program. Subsequently, we submitted a MIR to
mutilated coin redemptions by a relatively small       BEP to assist in correcting the weaknesses
number of individuals and corporations.                identified.

Our subsequent investigation revealed several
weaknesses that, if addressed, would likely
improve the integrity of the Mutilated Coin
Program. As such, we submitted the completed
MIR to Mint management addressing the
vulnerabilities of the program.

Report on BEP’s Mutilated Currency Exchange
Program

In the late 1800s, the U.S. government enacted
legislation requiring Treasury to exchange
damaged or mutilated U.S. currency on a one-
for-one basis. This allowed the public to

                 Treasury Office of Inspector General Semiannual Report—March 2010                   23
                                                                 current threshold for MLRs for failed banks of
Other OIG Accomplishments                                        $25 million, established in 1991, to between
and Activity                                                     $300 million and $500 million. The request was
                                                                 made so that resources could be made available
                                                                 for other work. Additionally, in May 2009, the
CIGIE Award Ceremony                                             same three Inspectors General testified before
                                                                 the Subcommittee on Oversight and
At the Annual Council of the Inspectors                          Investigations of the House Committee on
General on Integrity and Efficiency Ceremony                     Financial Services on that issue.
held on October 20, 2009, Treasury OIG
received a prestigious Audit Award for                           In his testimony, Mr. Thorson stressed the
Excellence in recognition of its MLR review of                   importance of MLRs and described the impact
IndyMac Bank, FSB. IndyMac’s failure resulted                    of the unprecedented number of MLRs during
in an estimated loss of $10.7 billion to FDIC’s                  the current financial crisis on our office’s ability
Deposit Insurance Fund, the most costly failure                  to do other important oversight work.
to trigger an MLR review of the current
economic crisis.                                                 In July 2009, the House passed H.R. 3330,
                                                                 Improved Oversight by Financial Inspectors
                                                                 General Act of 2009, which would, among
                                                                 other things, raise the threshold loss for MLRs
                                                                 to $200 million. On April 15, 2010, S. 3217, the
                                                                 Restoring American Financial Stability Act of
                                                                 2010, was introduced in the Senate. Section 987
                                                                 of that legislation includes a provision to
                                                                 establish the MLR threshold for failed banks at
                                                                 (1) $100 million from September 30, 2009,
                                                                 through December 31, 2010; (2) $75 million for
                                                                 2011; and (3) $50 million for 2012 and beyond.
IndyMac MLR team members Don Benson, Audit Director;             Like H.R. 3330, the Senate bill would require
Maryann Costello, Auditor-in-Charge; Sharon Torosian, Audit      some level of review by the cognizant OIG of
Manager; and Jeanne Degagne. Not pictured are Tim Cargell,
                                                                 all bank failures.
Auditor-in-Charge; Jason Madden, Auditor; Cynthia Milanez,
Referencer; John Colantoni, Senior Audit Specialist, FDIC OIG;
and Titus Simmons, Senior Audit Specialist, FDIC OIG.            Our office continues to believe the MLR
                                                                 threshold should be raised.
Efforts Made by Inspectors General to Raise the
MLR Threshold                                                    The Recovery Accountability and Transparency
                                                                 Board Activity
As discussed in our last semiannual report, in
January 2009 Inspector General Thorson and                       The Recovery Accountability and Transparency
the Inspectors General of FDIC and the                           Board (the Board) was established by the
Federal Reserve System sent letters to the                       Recovery Act to coordinate and conduct
Congress asking for consideration to raise the                   oversight of Recovery Act funds for purposes
                                                                 of preventing and detecting fraud, waste, and

                      Treasury Office of Inspector General Semiannual Report—March 2010                            24
                                                       Other OIG Accomplishments and Activity

mismanagement. Additionally, the Board                 Government Auditing Standards to undergo an
provides an unprecedented level of transparency        external peer review every 3 years. The objective
and accountability in relation to the use of           of an external peer review is to determine
Recovery-related funds.                                whether, during the period under review, the
                                                       audit organization’s system of quality control
The Board is comprised of 12 Inspectors                was suitably designed and whether the audit
General, from the 12 federal agencies charged          organization was complying with its quality
with awarding and distributing the largest             control system in order to provide the audit
amounts of Recovery Act funds. Treasury                organization with reasonable assurance of
Inspector General Thorson serves on the                conforming to applicable professional
Board.                                                 standards.

Among other things, to meet its objectives, the        During this semiannual period, the Department
Board coordinates broad oversight audits and           of State OIG completed an external peer of the
reviews of Recovery Act functions and activities       Treasury OIG audit organization and rendered
throughout the federal government. This is             a pass rating, the highest rating attainable, for the
accomplished primarily with the assistance of          year ended March 31, 2009. In a report dated
Inspectors General who serve on the Board.             November 19, 2009, the Department of State
The Board issues quarterly and annual reports          also noted two findings with our system of audit
to the President and Congress and, if necessary,       quality control for which we are taking
“flash reports” on matters that require                corrective action. The external peer review
immediate attention.                                   report is available on our website.

The Board also maintains the Recovery.gov              OIG Audit Leadership Roles
website so the American people can see how
Recovery money is being distributed by federal         Treasury OIG’s audit professionals actively
agencies and how the funds are being used by           support and serve on various important public
the recipients.                                        and private professional organizations
                                                       supporting the federal audit community.
In addition to the Board itself there are several      Examples of Treasury OIG Audit personnel
other committees and subgroups that support            participation in these organizations follow:
the Board’s activities. One such subgroup is the
Recovery Act Working Group which consists of           Joel Grover, Deputy Assistant Inspector
representatives from 29 OIGs. Our Deputy               General for Financial Management and
Inspector General, Dennis Schindel is a full           Information Technology Audits, serves as co-
time member of the working Group.                      chair of the Federal Audit Executive Council
                                                       Financial Statements Committee and is actively
External Peer Review of the Treasury OIG Office        involved in developing and coordinating the
of Audit Resulted in a Pass Rating                     Council’s positions on a variety of accounting
                                                       and auditing issues related to federal financial
Audit organizations that perform audits and            reporting. The committee also jointly sponsors
attestation engagements of federal government          with GAO an annual federal financial statement
programs and operations are required by                audit update conference.

                 Treasury Office of Inspector General Semiannual Report—March 2010                       25
                                                      Other OIG Accomplishments and Activity

Mr. Grover is also a member of the                    Metrick for his outstanding contributions to
Government Performance and Accountability             criminal investigations and prosecutions in
Committee of the American Institute of                Maryland related to identity theft, including the
Certified Public Accountants. The mission of          case of United States v. Amin. During the Amin
this Committee is to (1) promote greater              investigation, 12 defendants were convicted for
government accountability and integrity of            their participation in a scheme to steal and
government operations, information and                negotiate Treasury checks totaling more than
information systems; (2) promote and                  $100,000. The defendants all received prison
encourage increased participation and                 sentences, ranging from 24 to 75 months.
involvement by certified public accountants
(CPA) in government within the Institute;
(3) enhance the professional image and value of
CPAs in government; (4) provide advice and
counsel to the Institute on the needs of CPAs in
government, and (5) serve as a conduit for
communications among CPAs in government,
the Institute, and other professional
organizations.

Mr. Grover serves as a co-chair of the Maryland       Referenced in this picture are agents from Treasury, U.S. Secret
Association of Certified Public Accountants           Service, Department of Transportation OIG, U.S. Postal Service
Members in Government Committee. Among                OIG, U.S. Postal Inspection Service, District of Columbia OIG,
other activities, the Committee sponsors an           the U.S. Attorney’s Office for the District of Columbia, and Rod J.
                                                      Rosenstein, U.S. Attorney for the District of Maryland.
annual training conference on government/not-
for-profit accounting and auditing issues.
                                                      Treasury Team Wins a 2009 Presidential Energy
Bob Taylor, Deputy Assistant Inspector                Management Award
General for Performance Audits, Kieu Rubb,
                                                      Zenobia Ziegler, an Office of Investigations
Audit Director, and Cedric Hammond,
                                                      Program Analyst, was part of the Department
Manager, served as facilitators for a training
                                                      of the Treasury Energy and Transportation
course on the Council of the Inspectors General
                                                      Management Team whose efforts led to
on Integrity and Efficiency Audit Committee’s
                                                      significant reductions of energy use by fleet
external peer review guide. The day long
                                                      managers across the Department. In
training was held during March 2010 at the
                                                      recognition, the team was awarded a 2009
FDIC Seidman Center in Arlington, Virginia.
                                                      Presidential Energy Management Award.

OIG Special Agent Recognized by United States         The Presidential Awards for Leadership in
Attorney for Investigative Efforts                    Federal Energy Management recognize federal
                                                      employees for their support, leadership, and
On January 21, 2010, Special Agent Jason
                                                      efforts in promoting and improving federal
Metrick received a recognition award from the
                                                      energy management.
U.S. Attorney for the District of Maryland, Rod
J. Rosenstein. The award was given to Agent

                Treasury Office of Inspector General Semiannual Report—March 2010                                     26
                                                                        Other OIG Accomplishments and Activity

U.S. Immigration and Customs Enforcement                                OIG Receives Combined Federal Campaign
Partnership Award Presented to Office of                                Chairman’s Award
Investigations
                                                                        During Treasury’s 2009 Combined Federal
On February 19, 2010, the Office of                                     Campaign closing ceremony on February 25,
Investigations received the Immigration and                             2010, hosted by the Assistant Secretary for
Customs Enforcement Partnership Award. The                              Management, Dan Tangherlini, OIG was one of
award was given to the Office of Investigations                         several bureaus presented with the Chairman’s
in recognition of its work on an investigation of                       Award for exceeding both dollar and
abuse of the BEP Mutilated Currency Exchange                            participation goals. The OIG campaign
Program by individuals who submitted                                    coordinator, Jay Koehler, accepted the award
intentionally mutilated U.S. currency for                               for OIG.
reimbursement. The investigation resulted in a
significant seizure of U.S. currency by the U.S.
Attorney’s Office.




Pictured from left to right are James Dinkins, Director of the Office
of Investigations, Immigration and Customs Enforcement; James
Howell, Special Agent, Treasury OIG; John Phillips, Special
Agent-in-Charge Treasury OIG; Richard Hattauer, BEP; and
John Torres, Special Agent-in-Charge, Immigration and Customs
Enforcement..

Increase in OIG Workforce

OIG has continued to aggressively recruit and
hire staff to meet the increasing workload
associated primarily with financial institution
failures, but also to meet oversight
responsibilities for Recovery Act programs
administered by Treasury. Since the beginning
of fiscal year 2010, through March 31, 2010,
OIG has added 37 staff, with an additional 6
selected and in the pipeline.


                        Treasury Office of Inspector General Semiannual Report—March 2010                         27
Statistical Summary
Summary of OIG Activity
For the 6 months ended March 31, 2010

                                                                                                Number or
OIG Activity                                                                                    Dollar Value
Office of Counsel Activity
Regulation and legislation reviews                                                                                 2
Instances where information was refused                                                                            0
Office of Audit Activities
Reports issued (audits and evaluations)                                                                           40
Disputed audit recommendations                                                                                     0
Significant revised management decisions                                                                           0
Management decision in which the IG disagrees                                                                      0
Monetary benefits (audit)
Questioned costs                                                                                                   0
Funds put to better use                                                                                            0
Revenue enhancements                                                                                               0
Total monetary benefits                                                                                           $0
Office of Investigations Activities
Criminal and judicial actions (including joint investigations)
Cases referred for prosecution and/or litigation                                                                   6
Cases accepted for prosecution and/or litigation                                                                   0
Arrests                                                                                                            0
Indictments/informations                                                                                           0
Convictions (by trial and plea)                                                                                    0


Significant Unimplemented Recommendations
For reports issued prior to April 1, 2009

The following list of OIG audit reports with unimplemented recommendations is based on information
in Treasury’s automated audit recommendation tracking system, which is maintained by Treasury
management officials.

Number                    Date         Report Title and Recommendation Summary
OIG-06-030                05/06        Terrorist Financing/Money Laundering: FinCEN Has Taken Steps to Better Analyze
                                       Bank Secrecy Act Data but Challenges Remain
                                       FinCEN should enhance the current FinCEN database system or acquire a
                                       new system. An improved system should provide for complete and accurate
                                       information on the case type, status, resources, and time expended in


                        Treasury Office of Inspector General Semiannual Report—March 2010                          28
                                                                                  Statistical Summary

                       performing the analysis. This system should also have the proper security
                       controls to maintain integrity of the data. (1 recommendation)


OIG-08-008    11/07    Management Letter for Fiscal Year 2007 Audit of the Federal Financing Bank’s
                       Financial Statements
                       The Federal Financing Bank should follow through with its plan to upgrade
                       the Loan Management and Control System Database Management System
                       to a supported version of Oracle. (1 recommendation)


OIG-08-018    12/07    Management Letter for the Fiscal Year 2007 Audit of the United States Mint’s
                       Financial Statements
                       The Mint should establish and implement policies and procedures for the
                       retirement of assets to ensure that Excess Property forms are properly
                       completed, filed, and available for examination for a reasonable time period
                       after the retirement transaction. (1 recommendation)


OIG-08-035    06/08    Network Security at the Office of the Comptroller of the Currency Needs Improvement
                       OCC should ensure that the principle of least privilege is enforced and
                       applied to all OCC computer users as required by OCC policy.
                       (1 recommendation)


OIG-08-036    06/08    BEP Needs to Enforce and Strengthen Controls on Its Eastern Currency Facility to
                       Prevent and Detect Employee Theft
                       BEP management should (1) establish clear, written policies and procedures
                       that specify assignment of responsibility and actions to be taken when
                       discrepancies are found in the production process and (2) ensure that
                       employees, including supervisors, are trained and periodically retrained in
                       product security-related policies and procedures. (2 recommendations)


OIG-08-046    09/08    Federal Information Security Management Act Fiscal Year 2008 Performance Audit
                       OTS should continue with bureau plans to resolve the security weaknesses
                       identified during the certification and accreditation process by the end of the
                       interim authorization period, December 31, 2008, and achieve a full
                       authority to operate during the fiscal year 2009 FISMA reporting period.
                       (1 recommendation)



             Treasury Office of Inspector General Semiannual Report—March 2010                               29
                                                                                  Statistical Summary

OIG-09-006    11/08    Audit of the Department of the Treasury’s Fiscal Years 2008 and 2007 Financial
                       Statements
                       The Assistant Secretary for Management and Chief Financial Officer and
                       the Deputy Assistant Secretary for Human Resources and Chief Human
                       Capital Officer, with input from the Director of Accounting and Internal
                       Controls, as appropriate, document policy and procedures related to Federal
                       Credit Reform Act transactions, periodically examine performance of the
                       credit programs to re-estimate cash flow projections and assumptions, and
                       have affected personnel continue to consult with other Federal agencies that
                       have substantial credit reform accounting experience. (1 recommendation)


OIG-09-009    11/08    The Department of the Treasury’s Special-Purpose Financial Statements for Fiscal Years
                       2008 and 2007
                       The Department should improve controls to ensure that the special-purpose
                       financial statement and accompanying notes are accurately prepared in
                       accordance with the instructions contained in Chapter 4700. Internal control
                       improvements should include appropriate supervisory review, by
                       responsible officials of the closing package prior to lock down.
                       (1 recommendation)


OIG-09-013    12/08    Safety and Soundness: Material Loss Review of ANB Financial, NA
                       OCC should reassess their guidance and examination procedures in the
                       Comptroller’s Handbook related to bank use of wholesale funding with a
                       focus on heavy reliance on brokered deposits and other non-retail deposit
                       funding sources for growth. (1 recommendation)


OIG-09-014    1/09     Information Technology: United States Department of the Treasury’s Compliance with
                       Section 522 of the Consolidated Appropriations Act of 2005
                       The Office of Privacy and Treasury Records management should (1) prepare
                       a report to Congress on an annual basis on activities of the Treasury that
                       affect privacy, including complaints of privacy violations; implementation of
                       Section 552a of Title 5, 11 United States Code; internal controls; and other
                       relevant matters; and (2) record a formal written report on the use of
                       information in an identifiable form, as well as privacy and data protection
                       policies and procedures with the OIG. (2 recommendations)




             Treasury Office of Inspector General Semiannual Report—March 2010                            30
                                                                                     Statistical Summary

OIG-09-016        1/09     Management Letter for Fiscal Year 2008 Audit of the United States Mint’s Financial
                           Statements
                           The Mint should (1) update policies and procedures for the retirement of
                           assets to ensure that retirement forms are completed for all assets retired
                           and that the forms are retained for examination for a reasonable time period
                           after the retirement transaction., (2) ensure that all assets with barcodes are
                           scanned as part of the inventory or documented as a reconciling item with
                           an explanation of the circumstances, and (3) implement an inventory
                           standard operating procedure for Numismatic Inventory.
                           (3 recommendations)


OIG-09-024        1/09     General Management: Treasury Should Reactivate State-Held Federal Unclaimed Assets
                           Recovery Program (Corrective Action Verification on OIG-02-105)
                           Treasury should reactivate the state-held federal unclaimed assets recovery
                           program with appropriate policies, procedures, and controls. This
                           recommendation has a potential revenue enhancement monetary benefit of
                           $10.5 million. (1 recommendation)


OIG-09-027        1/09     Management Letter for Fiscal Year 2008 Audit of the Office of the Comptroller of the
                           Currency’s Financial Statements
                           OCC should continue to dedicate resources to fully implement the necessary
                           System Management Server process automatically and promptly detect and
                           remove unauthorized personal and public domain software from OCC
                           systems (workstations) and implement controls to restrict users from
                           downloading and installing unapproved software. (1 recommendation)



Summary of Instances Where Information Was Refused
October 1, 2009, through March 31, 2010

There were no such instances during this period.




                Treasury Office of Inspector General Semiannual Report—March 2010                           31
                                                                                           Statistical Summary

Listing of Audit and Evaluation Reports Issued
October 1, 2009, through March 31, 2010

Financial Audits and Attestation Engagement
Audit of the United States Mint's Schedule of Custodial Deep Storage Gold and Silver Reserves as of September 30,
2009 and 2008, OIG-10-003, 10/21/09

Audit of Bureau of Engraving and Printing's Fiscal Years 2009 and 2008 Financial Statements, OIG-10-004,
11/4/09

Financial Management’s Report on the Bureau of the Public Debt Trust Fund Management Branch Schedules for Selected
Trust Funds as of and for the Year Ended September 30, 2009, OIG-10-005, 11/6/09

Management Letter for Fiscal Year 2009 Audit of Bureau of Engraving and Printing's Financial Statements,
OIG-10-006, 11/10/09

Audit of the Federal Financing Bank's Fiscal Years 2009 and 2008 Financial Statements, OIG-10-007, 11/12/09

Management Letter for Fiscal Year 2009 Audit of the Federal Financing Bank's Financial Statements, OIG-10-008,
11/12/09

Audit of the Community Development Financial Institutions Fund's Fiscal Year 2009 Financial Statements and Fiscal
Year 2008 Statement of Financial Position, OIG-10-009, 11/16/09

Management Letter for Fiscal Year 2009 Audit of the Community Development Financial Institutions Fund’s Financial
Statements, OIG-10-010, 11/16/09

Audit of the Department of the Treasury Forfeiture Fund's Fiscal Years 2009 and 2008 Financial Statements,
OIG-10-012, 11/24/09

Audit of the United States Mint’s Fiscal Years 2009 and 2008 Financial Statements, OIG-10-013, 12/1/09

Management Letter for Fiscal Year 2009 Audit of the United States Mint’s Financial Statements, OIG-10-014,
2/1/09

Audit of the Office of D.C. Pensions’ Fiscal Years 2009 and 2008 Financial Statements, OIG-10-015, 12/7/09

Management Letter for Fiscal Year 2009 Audit of the Office of D.C. Pensions’ Financial Statements, OIG-10-016,
12/7/09




                   Treasury Office of Inspector General Semiannual Report—March 2010                                32
                                                                                           Statistical Summary

Audit of the Financial Management Service's Fiscal Years 2009 and 2008 Schedules of Non-Entity Government-Wide
Cash, OIG-10-018, 12/9/09

Audit of the Financial Management Service's Fiscal Years 2009 and 2008 Schedules of Non-Entity Assets, Non-
Entity Costs and Custodial Revenue, OIG-10-019, 12/9/09

Management Report For Fiscal Year 2009 Audit of the Financial Management Service's Schedule of Non-Entity
Assets, Non-Entity Costs and Custodial Revenue (Sensitive But Unclassified), OIG-10-020, 12/10/09

Management Letter for Fiscal Year 2009 Audit of the Financial Management Service's Schedule of Non-Entity
Government-wide Cash, OIG-10-021, 12/10/09

Management Report for Fiscal Year 2009 Audit of the Financial Management Service's Schedule of Non-Entity
Government-wide Cash, (Sensitive But Unclassified), OIG-10-022, 12/10/09

Audit of the Department of Treasury's Fiscal Years 2009 and 2008 Financial Statements, OIG-10-023, 12/16/09

Audit of the Office of the Comptroller of the Currency's Fiscal Years 2009 and 2008 Financial Statements,
OIG-10-024, 12/22/09

Management Letter for Fiscal Year 2009 Audit of the Office of the Comptroller of the Currency's Financial Statements,
OIG-10-025, 12/22/09

Audit of the Financial Crimes Enforcement Network's Fiscal Years 2009 and 2008 Financial Statements,
OIG-10-026, 12/22/09

Audit of the Exchange Stabilization Fund's Fiscal Years 2009 and 2008 Financial Statements, OIG-10-027,
12/22/09

Management Letter for Fiscal Year 2009 Audit of the Exchange Stabilization Fund's Financial Statements,
OIG-10-028, 12/22/09

Audit of the Department of the Treasury's Special-Purpose Financial Statements for Fiscal Years 2009 and 2008,
OIG-10-029, 1/7/10

Audit of the Office of Thrift Supervision's Fiscal Years 2009 and 2008 Financial Statements, OIG-10-031, 1/19/10

Management Letter for Fiscal Year 2009 Audit of the Office of Thrift Supervision's Financial Statements,
OIG-10-032, 1/19/10

Management Letter for Fiscal Year 2009 Audit of the Department of the Treasury's Financial Statements,
OIG-10-035, 2/4/10


                   Treasury Office of Inspector General Semiannual Report—March 2010                                33
                                                                                         Statistical Summary

Information Technology Audits and Evaluations
Information Technology: Improvements Needed in CDFI Fund's Access Controls and Configuration Management,
OIG-10-037, 2/25/10

Information Technology: The Department of Treasury Federal Information Security Management Act Fiscal Year 2009
Evaluation, OIG-CA-10-003, 11/13/09

Performance Audits
Safety and Soundness: Material Loss Review of TeamBank, National Association, OIG-10-001, 10/7/09

Recovery Act: Treasury Should Ensure That Assessments of Staffing, Qualifications, and Training Needs Are Based on
Reliable Survey Data, OIG-10-002, 10/13/09

Safety and Soundness: Material Loss Review of American Sterling Bank, OIG-10-011, 11/25/09

Safety and Soundness: Material Loss Review of Omni National Bank, OIG-10-017, 12/9/09

SAR Data Quality Requires FinCEN’s Continued Attention, OIG-10-030, 1/19/10

Safety and Soundness: Material Loss Review of Silverton Bank, N.A., OIG-10-033, 1/22/10

Recovery Act: Improvement Is Needed in Treasury's Data Quality Reviews, OIG-10-034, 1/28/10

Safety and Soundness: Material Loss Review of First Bank of Idaho, OIG-10-036, 2/16/10

Safety and Soundness: Material Loss Review of Citizens National Bank, OIG-10-038, 3/22/10

General Management: Administrative Resource Center Processing of Personnel Actions for the Community Development
Financial Institution Fund, OIG-CA-10-005, 2/1/10




                  Treasury Office of Inspector General Semiannual Report—March 2010                             34
                                                                                                   Statistical Summary

Audit Reports Issued With Questioned Costs
October 1, 2009, through March 31, 2010

                                                                               Total         Total           Total
                                                                               No. of        Questioned      Unsupported
Category                                                                       Reports       Costsa          Costsa
For which no management decision had been made by beginning of reporting
periodb                                                                                  1        $995,367                 0
Which were issued during the reporting period                                            0               0                 0
  Subtotals                                                                              1        $995,367                 0
For which a management decision was made during the reporting period                     0               0                 0
  Dollar value of disallowed costs                                                       0               0                 0
  Dollar value of costs not disallowed                                                   0               0                 0
For which no management decision was made by the end of the reporting period             1        $995,367                 0
For which no management decision was made within 6 months of issuance                    1        $995,367                 0
a   Questioned costs include unsupported costs.
b   Audit was performed by the Defense Contract Audit Agency.




Audit Reports Issued With Recommendations That Funds Be Put to Better
Use
October 1, 2009, through March 31, 2010

At the beginning of the period, there were no audit reports from prior periods pending a management
decision on recommendations that funds be put to better use. There were also no audit reports issued
during this period with recommendations that funds be put to better use.



Previously Issued Audit Reports Pending Management Decisions (Over
6 Months)
We have one previously issued audit report pending a management decision: Contract Audit: Spectra
Systems Corporation’s Cost Proposal in Response to Solicitation TEP-09-007, OIG-09-040A, dated
July 15, 2009, with $995,367 in questioned costs. We are working with BEP management to resolve this
matter.



Significant Revised Management Decisions
October 1, 2009, through March 31, 2010

There were no significant revised management decisions during the period.

                            Treasury Office of Inspector General Semiannual Report—March 2010                          35
Significant Disagreed Management Decisions
October 1, 2009, through March 31, 2010

There were no management decisions this period with which the IG was in disagreement.




                Treasury Office of Inspector General Semiannual Report—March 2010       36
References to the Inspector General Act
                                                            Requirement                                                   Page
Section 4(a)(2)    Review of legislation and regulations                                                                       28
Section 5(a)(1)    Significant problems, abuses, and deficiencies                                                            5-23
Section 5(a)(2)    Recommendations with respect to significant problems, abuses, and deficiencies                            5-23
Section 5(a)(3)    Significant unimplemented recommendations described in previous semiannual reports                       28-31
Section 5(a)(4)    Matters referred to prosecutive authorities                                                                 28
Section 5(a)(5)    Summary of instances where information was refused                                                          32
Section 5(a)(6)    List of audit reports                                                                                    32-34
Section 5(a)(7)    Summary of significant reports                                                                            5-23
Section 5(a)(8)    Audit reports with questioned costs                                                                         35
Section 5(a)(9)    Recommendations that funds be put to better use                                                             35
Section 5(a)(10)   Summary of audit reports issued before the beginning of the reporting period for which no management     35-36
                   decision had been made
Section 5(a)(11)   Significant revised management decisions made during the reporting period                                  35
Section 5(a)(12)   Management decisions with which the IG is in disagreement                                                  36
Section 5(a)(13)   Instances of unresolved FFMIA noncompliance                                                                 8
Section 5(d)       Serious or flagrant problems, abuses, or deficiencies                                                     N/A
Section 6(b)(2)    Report to Secretary when information or assistance is unreasonably refused                                N/A




                   Treasury Office of Inspector General Semiannual Report—March 2010                                             37
Abbreviations
ARC      Administrative Resource Center
ASB      American Sterling Bank
BEP      Bureau of Engraving and Printing
BPD      Bureau of the Public Debt
BSA      Bank Secrecy Act
CMO      collateralized mortgage obligations
CNB      Citizens National Bank
CPA      certified public accountant
CPP      Capital Purchase Program
CRE      commercial real estate
EESA     Emergency Economic Stabilization Act
FDIC     Federal Deposit Insurance Corporation
FDICIA   Federal Deposit Insurance Corporation Improvement Act
FinCEN   Financial Crimes Enforcement Network
FISMA    Federal Information Security Management Act
FMS      Financial Management Service
GAO      Government Accountability Office
IRS      Internal Revenue Service
MIR      Management Implication Reports
MLR      material loss review
OCC      Office of the Comptroller of the Currency
OFAC     Office of Foreign Assets Control
OIG      Office of Inspector General
OMB      Office of Management and Budget
OTS      Office of Thrift Supervision
PCA      Prompt Corrective Action
SAR      suspicious activity reports
TARP     Troubled Asset Relief Program
TIER     Treasury Information Executive Repository




          Treasury Office of Inspector General Semiannual Report—March 2010   38
                                  Eric M. Thorson, Treasury Inspector General

Eric Thorson was sworn into office on August 12, 2008, as the Treasury Inspector General. Before joining Treasury,
               Mr. Thorson served as the Inspector General for the Small Business Administration.
This page intentionally left blank.
This page intentionally left blank.
         

     
            contact us
     

    Headquarters
    Office of Inspector General
    1500 Pennsylvania Avenue, N.W.,
    Room 4436
    Washington, D.C. 20220
    Phone: (202) 622-1090;
    Fax: (202) 622-2151

    Office of Audit
    740 15th Street, N.W., Suite 600
    Washington, D.C. 20220
    Phone: (202) 927-5400;
    Fax: (202) 927-5379

    Office of Investigations
    799 9th Street, N.W., 8th Floor
    Washington, D.C. 20220
    Phone: (202) 927-5260;
    Fax: (202) 927-5421

    Office of Counsel
    740 15th Street, N.W., Suite 510
    Washington, D.C. 20220
    Phone: (202) 927-0650;
    Fax: (202) 927-5418                Treasury OIG Hotline
    Office of Management               Call Toll Free: 1.800.359.3898
    740 15th Street, N.W., Suite 510
    Washington, D.C. 20220
    Phone: (202) 927-5200;
                                       Treasury OIG Web Page
    Fax: (202) 927-6492
                                       OIG reports and other information are now available via the
    Eastern Field Audit Office         Internet. The address is
    408 Atlantic Avenue, Room 330      http://www.treas.gov/inspector-general
    Boston, Massachusetts 02110-3350
    Phone: (617) 223-8640;
    Fax (617) 223-8651
